<html>
<title> - HEARING WITH RESPECT TO SBA PROGRAMS FOR VETERANS AND THE NATIONAL VETERANS BUSINESS DEVELOPMENT CORPORATION</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  HEARING WITH RESPECT TO SBA PROGRAMS FOR VETERANS AND THE NATIONAL 
               VETERANS BUSINESS DEVELOPMENT CORPORATION

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                      WASHINGTON, DC, MAY 23, 2001

                               __________

                           Serial No. 107-10

                               __________

         Printed for the use of the Committee on Small Business


                   U.S. GOVERNMENT PRINTING OFFICE
75-151                     WASHINGTON : 2001

----------------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone (202) 512�091800  Fax: (202) 512�092250
              Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON SMALL BUSINESS

                  DONALD MANZULLO, Illinois, Chairman
LARRY COMBEST, Texas                 NYDIA M. VELAZQUEZ, New York
JOEL HEFLEY, Colorado                JUANITA MILLENDER-McDONALD, 
ROSCOE G. BARTLETT, Maryland             California
FRANK A. LoBIONDO, New Jersey        DANNY K. DAVIS, Illinois
SUE W. KELLY, New York               WILLIAM PASCRELL, New Jersey
STEVEN J. CHABOT, Ohio               DONNA M. CHRISTIAN-CHRISTENSEN, 
PATRICK J. TOOMEY, Pennsylvania          Virgin Islands
JIM DeMINT, South Carolina           ROBERT A. BRADY, Pennsylvania
JOHN THUNE, South Dakota             TOM UDALL, New Mexico
MIKE PENCE, Indiana                  STEPHANIE TUBBS JONES, Ohio
MIKE FERGUSON, New Jersey            CHARLES A. GONZALEZ, Texas
DARRELL E. ISSA, California          DAVID D. PHELPS, Illinois
SAM GRAVES, Missouri                 GRACE F. NAPOLITANO, California
EDWARD L. SCHROCK, Virginia          BRIAN BAIRD, Washington
FELIX J. GRUCCI, Jr., New York       MARK UDALL, Colorado
TODD W. AKIN, Missouri               JAMES R. LANGEVIN, Rhode Island
SHELLEY MOORE CAPITO, West Virginia  MIKE ROSS, Arkansas
                                     BRAD CARSON, Oklahoma
                                     ANIBAL ACEVEDO-VILA, Puerto Rico
                      Doug Thomas, Staff Director
                  Phil Eskeland, Deputy Staff Director
                  Michael Day, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 23, 2001.....................................     1

                               Witnesses

Elmore, William, Associate Administrator for Veterans Affairs, 
  U.S. Small Business Administration.............................     3
Glassman, Robert, Chairman, National Veterans Business 
  Development Corporation........................................     5
Ortner, Blake, Associate Legislative Director, Paralyzed Veterans 
  of America.....................................................     7
Eiland, Anthony, Special Assistant for Veterans Employment, 
  Veterans of Foreign Wars of the U.S............................     9
Crandell, William, Director of Government Relations, Association 
  for Service Disabled Veterans..................................    11
Weidman, Rick, Director of Government Relations, Vietnam Veterans 
  of America.....................................................    13

                                Appendix

Opening statements:
    Manzullo, Hon. Donald........................................    30
    Velazquez, Hon. Nydia........................................    32
Prepared statements:
    Elmore, William..............................................    34
    Glassman, Robert.............................................    43
    Ortner, Blake................................................    47
    Eiland, Anthony..............................................    56
    Crandell, William............................................    61
    Weidman, Rick................................................    66
Additional Information:
    Letter from SBA in response to questions posed in hearing....    73


                 VETERANS BUSINESS DEVELOPMENT HEARING

                              ----------                              


                        WEDNESDAY, MAY 23, 2001

                          House of Representatives,
                               Committee on Small Business,
                                                    Washington, DC.
    The committee met, pursuant to call, at 10:04 a.m. in room 
2361, Rayburn House Office Building, Hon. Donald Manzullo 
(chairman of the committee) presiding.
    Chairman Manzullo. We will come to order. Good morning, and 
welcome to this hearing of the Committee on Small Business. A 
special welcome to those who have traveled a long distance to 
come here.
    The Small Business Administration is required by statute to 
provide special consideration to veterans in the administration 
of its programs. In the past, there have been complaints the 
SBA and other agencies have been ignoring the needs of those 
veterans with aspirations to start or grow a small business.
    The subject of the hearing is the performance of the Small 
Business Administration in providing financial and 
entrepreneurial assistance to veterans. Specifically, this 
hearing will look into the performance of the SBA in 
implementing Public Law 106-50, the Veterans Entrepreneurship 
and Small Business Development Act of 1999, which was signed 
into law in August of that year.
    This law provides that technical, financial and procurement 
assistance be given to veterans. I am happy to say that special 
emphasis is given in the law to providing assistance to small 
businesses owned and controlled by service disabled veterans.
    Basic to this hearing is remembering our veterans and the 
sacrifices they made for this nation. Memorial Day is a day of 
remembrance. I can assure you that we in Congress have not 
forgotten you.
    I look forward to a lively and informative discussion of 
the issues presented. Again, welcome to the hearing. I yield to 
the Ranking Member, Mrs. Velazquez, for her opening statement.
    [Chairman Manzullo's statement may be found in appendix.]
    Ms. Velazquez. Thank you. Good morning. Thank you, Mr. 
Chairman. Good morning.
    It is often said in the business world everyone is paid in 
two coins, experience and cash. You should take the experience 
first, and the cash will come later. For every business owner 
in today's marketplace, no truer statement has ever been 
spoken, but for our veteran small business owners experience is 
something they have in abundance. What they need is the capital 
and technical assistance to grow and expand their companies.
    All of us in this room know what veterans have sacrificed 
in the last 225 years to ensure that this country and our 
people remain a free democratic society. For all that they have 
done for us, it is now our duty to return that sacrifice to 
those who want their piece of the American dream.
    Unfortunately, in recent years we have seen a decline in 
the numbers of veteran business owners and entrepreneurs in 
spite of a growing economy. There has long been a growing 
concern that veteran small business owners were, for whatever 
reason, unable to access those components necessary to start 
and grow a new business.
    This Committee responded to those concerns during the 106th 
Congress by drafting, passing and getting signed into law the 
Veterans Entrepreneurship and Small Business Development Act. 
This new law had several important goals, but one overriding 
theme. Provide technical, financial and federal procurement 
assistance to veteran-owned businesses.
    While this legislation has achieved many of its goals, 
there is certainly more that can and must be done for these 
small business owners. For example, this Committee has been 
very active in pursuing the interests of all small firms as 
they try to do business with the federal government.
    Rest assured, our work on this issue will continue until 
the Members of this Committee are satisfied that small 
businesses, whether they are owned by women, men, minorities or 
veterans, are given every possible opportunity to compete for 
federal prime contracts.
    With that said, let me make one important point about 
today's hearing. As we come together today to review the 
progress of this legislation, we must do so in the context of 
how we are best serving all of our nation's small businesses.
    The fact is our nation over the last decade has experienced 
the greatest period of sustained economic growth in our 
history. We have an unemployment rate that stands at a little 
over four percent. Personal income has quadrupled, and the 
price of consumer goods continues to fall. Still, key economic 
indicators such as increased layoffs and business closings in 
technology show that we are clearly facing a financial 
situation with more questions than answers.
    With that in mind, we need to improve ways for small firms 
to access capital. We should not be eliminating the tools to 
help rebuild the foundation of our economy, but help 
entrepreneurs live out their dream.
    All of these issues and a whole host of others make up just 
some of the obstacles that small business owners will face in 
the coming months and years. More importantly, the communities 
that these economic anchors call home are going to have to face 
these issues as well unless we do something to help them.
    In closing, Mr. Chairman, let me say again that the 
5,000,000 veteran small business owners know what sacrifice is 
all about. Frankly, within the business community I think that 
that gives them unique qualifications for being a small 
business owner. They understand what their company's success 
can mean for their families and their community at least, just 
as they understood what their military service means to this 
country.
    It is important to remember that while this hearing today 
focuses on how we can help them succeed in today's economy, we 
cannot forget that we also have a responsibility to ensure that 
all small business owners are given the tools and the 
opportunities to grow and prosper. After all, the veterans that 
sit before us today have done a great deal to protect America's 
future. It is now time to do our part.
    Thank you, Mr. Chairman.
    [Ms. Velazquez's statement may be found in appendix.]
    Chairman Manzullo. Thank you for that excellent opening 
statement.
    We may have a lively day on the Floor today. I am not quite 
sure what is going to happen. I would ask that you respect the 
lights. When the yellow light comes on, that means you have one 
minute. When the red light comes on, that means that you are 
out of time.
    I know five minutes is not a lot of time to tell your 
story, but I would ask that you limit it to that. Then we will 
have plenty of time for questions.
    We will start with Bill Elmore. Bill is the associate 
administrator for Veterans Affairs with the U.S. Small Business 
Administration.
    Mr. Elmore, welcome this morning.

STATEMENT OF WILLIAM ELMORE, ASSOCIATE ADMINISTRATOR, VETERANS 
    BUSINESS DEVELOPMENT, U.S. SMALL BUSINESS ADMINISTRATION

    Mr. Elmore. Thank you. Mr. Chairman, Ranking Member, and 
other Members of the Committee, I am William Elmore, the first 
associate administrator for Veterans Business Development at 
the SBA. Thank you for this opportunity to appear before you 
today. I would like to request that my written testimony be 
entered into the record.
    Chairman Manzullo. All of the written testimony of the 
witnesses and Members of Congress will be entered in the record 
without objection.
    Mr. Elmore. Thank you.
    In 1973, Congress deleted Section 1813 of Title 38, 
eliminating the small business loan guarantees for veterans 
created in the GI bills of World War II and Korea. 
Correspondingly, in January, 1974, Congress mandated that SBA 
begin providing special consideration to veterans, their 
dependents or survivors in all of our programs.
    In 1983, SBA created the Office of Veterans Affairs. On 
July 24, 2000, I was hired to run the new Office of Veterans 
Business Development. Before I left my small business to come 
to government, I was a veteran small business advocate 
appearing before this and other Committees in that capacity. 
Now as an Administration representative, I am learning that 
implementing real and substantive change is a challenge that 
requires time, resources, allies and cooperation.
    I understand that Public Law 106-50 requires and veterans 
deserve a thorough and complete implementation. In addition to 
my written testimony, the following provides a synopsis of what 
has been done so far.
    SBA. has made significant improvements to our website. We 
have created distance learning courses specifically for 
veterans. We have compiled information on government 
procurement and disseminated this to approximately 20,000 
service disabled and other veteran owned small businesses.
    The federal procurement data system has been modified to 
collect procurement data on veterans and service disabled 
veterans. We have mined information out of SBA databases and 
compiled a list of approximately 80,000 service disabled and 
veteran owned small businesses. We are providing them ongoing 
information on federal procurement opportunities.
    We have developed a quarterly newsletter that is sent to 
veteran small business owners, SBA staff and veteran serving 
organizations. SBA has reviewed, revised and we are planning to 
expand the Veterans Business Outreach program. We are planning 
a national training conference for SBA district Veterans 
Affairs offices and will invite our resource partners to 
participate.
    We are organizing special outreach efforts through ten of 
our SBA district offices. We are developing a national outreach 
poster to be provided to 5,000 plus veteran serving locations. 
We are assisting the Office of Advocacy with research that 
examines veteran and service disabled veteran business 
ownership, their needs, their engagement with SBA and other 
services.
    We are updating and revising our previously successful 
Veteran Entrepreneur Training program. We are meeting with and 
providing guidance to each program office of the SBA to assist 
them in implementing data collection that will capture veteran, 
service disabled veteran and veteran eligible information.
    We worked with the Small Business Development Center 
program on their program announcement to improve their services 
to veterans and service disabled veterans. We organized a 
meeting with the SBA Office of Capital Access and 
representatives from the veteran serving community to explore 
capital and technical assistance programs for veterans.
    We asked more than 200 former SBA state and national 
veteran advocate winners to assist us in ensuring special 
consideration is delivered at the local level. We have reviewed 
more than a decade of SBA services for veterans and are 
developing recommendations for the next administrator based on 
this review.
    We have solicited program recommendations from the Veterans 
Affairs officers in SBA district offices. We are creating a 
database of small business media, veterans media, veterans 
serving locations and small business associations to provide 
them print and electronic tools regarding SBA services and 
procurement opportunities for service disabled and other 
veterans.
    We assisted the start up on the National Veterans Business 
Development Corporation, including hosting their first board 
meetings. We have and are continuing to develop recommendations 
for the next Administrator for strengthening his 
Administrator's order, and we are exploring options to improve 
ProNet for service disabled veteran and veteran entrepreneurs.
    I note that since October, 2000, the number of service 
disabled veterans registered in ProNet has risen by more than 
28 percent, and the number of veterans registered in ProNet has 
risen by almost 17 percent. This reverses years of decline.
    In closing, we anticipate a renewed commitment from the new 
Administration because of their stated interest in veterans and 
small business success. We are aware that veterans and service 
disabled veterans have not historically received the attention 
they deserve. With the support of the new Administration, 
Congress, our resource partners and the veteran entrepreneurs 
themselves, we will change this.
    Thank you.
    [Mr. Elmore's statement may be found in appendix.]
    Chairman Manzullo. Mr. Elmore?
    Mr. Elmore. Yes, sir?
    Chairman Manzullo. You read a list that was not in your 
written testimony. If you could make available that list to us?
    Mr. Elmore. I would be pleased to, sir.
    Chairman Manzullo. Would that be okay?
    Mr. Elmore. Absolutely.
    Chairman Manzullo. Obviously you have updated your written 
testimony. I appreciate your taking the extra effort on that.
    Our next witness is Robert Glassman. He is the chairman of 
the National Veterans Business Development Corporation.
    Mr. Glassman, welcome.

STATEMENT OF ROBERT A. GLASSMAN, CHAIRMAN, BOARD OF DIRECTORS, 
       NATIONAL VETERANS BUSINESS DEVELOPMENT CORPORATION

    Mr. Glassman. Thank you, and good morning, Chairman 
Manzullo, Ranking Member Velazquez, and Members of the 
Committee. I am very honored to be here to address you, but I 
must admit that the memory that will last a lifetime will be 
that my fellow board member sitting immediately behind me is 
retired Army Major General Jim Klugh. It is very rare that an 
ex lieutenant can be backed up by a Major General, and I will 
always remember that.
    Chairman Manzullo. Could you stand up, please? Welcome.
    Major General Klugh. Thank you, sir.
    Mr. Glassman. Before I describe the progress we have made, 
I would like to thank Congress for creating the National 
Veterans Business Development Corporation. Many members of the 
veterans community have been working on this endeavor for over 
a decade, and Members of your Committee have been involved with 
this legislation for the last three years.
    However, I must note our corporation, which is one of the 
products of these efforts, is now only in the seventieth day of 
our funding. While the law was fairly specific in its direction 
to the corporation and board structure, clients to be served 
and coordinating role with public and private resource 
partners, it was less specific as to how we should implement 
the directive for the corporation to become self-sustaining in 
a four-year period.
    That gives the independence to achieve self-sufficiency in 
a variety of ways and the opportunity to evolve into an 
organization with a broad reach into the veterans community. 
The corporation intends to act in the same entrepreneurial 
manner, spirit and ethic which we are tasked to provide to the 
4,000,000 veteran owned businesses, 300,000 service disabled 
veteran owned businesses and the 200,000 members of the 
military transitioning to the civilian sector each year.
    We intend to carry through this entrepreneurial ethic in 
all our activities. For example, the corporation will provide 
expanded entrepreneurial technical assistance to veterans, 
including service disabled veterans. One path to that goal is 
to provide veterans with a virtual technical assistance center 
by creating a user friendly website that will provide 
information, links to service providers and contracting 
opportunities in the public and private sectors.
    In addition, we will establish community based veteran 
business assistance centers in partnership with key service 
providers throughout the U.S. We will seek to export the 
federal three percent service disabled veteran procurement goal 
to the private sector in the form of a set of procurement 
principles.
    I would like to turn to some of the concrete steps we have 
taken to build infrastructure. This law was signed on August 
22, 1999. Our first board members nominated by Congress and 
appointed by the President met in September, 2000. Since that 
time, the board has been meeting on a quarterly basis.
    Presently there are eight volunteer private sector 
directors with one seat open. In 2002, there will be two more 
vacancies and three more in 2004. To assist in furthering the 
goals of this corporation, it is most important that the new 
members be individuals who have built and managed successful 
businesses, have raised capital, are familiar with the new 
economy and in a technological sense have the ability to think 
out of the box.
    Furthermore, some of these members should have broad 
backgrounds in state and federal government and procurement 
expertise with these entities. I cannot overstate the 
importance of finding the most qualified individuals to be 
board members in order to ensure the continued success of the 
corporation.
    Our present board members represent private industry, state 
and non-profit service providers. They are veterans of World 
War II, Korea, Vietnam and peacetime service. Additionally, 
there are three non-voting directors representing DOD, VA and 
SBA. I particularly want to thank Mr. Elmore at my right here, 
the associate administrator for Veterans Business Development 
at SBA, for his contributions.
    In March of 2001 when we received the appropriated funds, 
we continued to develop the corporation's infrastructure. We 
hired interim staff, established bank accounts, secured 
temporary office space. We are also conducting a national 
search for a permanent CEO. We have retained an accounting firm 
specializing in providing financial services for non-profit 
organizations. We are in the process of securing services for 
printing database design and fund raising.
    In the next few months, we anticipate we will provide 
written materials for our customers and for fund raising 
purposes, build the website and reach out to our federal 
partners to coordinate our activities.
    We have retained VetSolutions to develop our strategic 
plan. VetSolutions is a national business development firm 
providing training and consulting and research services to 
veteran owned businesses. Founded by three disabled Vietnam 
veterans with extensive backgrounds in business, program 
development and veterans affairs, these gentlemen were involved 
in the legislative and planning process underlying P.L. 106-50.
    As part of the planning effort, they have interviewed board 
members, staff and major stakeholders. When approved at our 
next meeting, we expect that plan to be the corporation's road 
map for future activities.
    While my written submission speaks to the infrastructure 
and framework we are building, it should be remembered that the 
most important component is the strategic planning effort of 
how best to employ an amount of funding that is approximately 
ten minutes worth of the VA budget.
    While this legislation can be viewed narrowly task by task 
on behalf of the veterans we are serving, I prefer to look at 
it through a wide angle lens, to think of it as an investment 
program with the federal government as its lead investor. In 
this context, it may arguably be said that this public/private 
initiative may be the most important piece of social venture 
capital since the GI bill.
    On a personal note, I would like to extend my thanks. 
Thirty years ago I was a beneficiary of that GI bill, and I 
would not be privileged to be presenting to you were it not for 
the wisdom of the Congresses that preceded you.
    I wanted to say a personal thanks. When I returned from 
Vietnam, the GI bill was an enormous help to pay my graduate 
school tuition, and I wanted to extend my thanks for that.
    [Mr. Glassman's statement may be found in appendix.]
    Chairman Manzullo. I bet you never thought you would be 
testifying before Congress 70 days after you got started.
    Mr. Glassman. I hardly know how to respond to that.
    Chairman Manzullo. You already have.
    Our next witness is Blake Ortner. Blake is the associate 
legislative director of the Paralyzed Veterans of America.
    Welcome, Blake. We look forward to your testimony.

  STATEMENT OF BLAKE ORTNER, ASSOCIATE LEGISLATIVE DIRECTOR, 
                 PARALYZED VETERANS OF AMERICA

    Mr. Ortner. Chairman Manzullo, Ranking Member Velazquez, 
Members of the Committee, the Paralyzed Veterans of America 
appreciates this opportunity to testify regarding the 
performance of the Small Business Administration's assistance 
for veterans.
    The issue of small business ownership is important to PVA. 
PVA's members are veterans disabled by catastrophic injury or 
diseases. The many challenges still facing individuals with 
disabilities as they seek employment have resulted in an 
unemployment rate higher than that of any other category of 
citizens in the United States.
    The lack of benefits provided by traditional employers 
often make it more difficult for the disabled to enter the work 
force. Small business ownership and self-employment is a bridge 
for many of these individuals.
    Last year, when PVA testified, we believed the SBA had been 
unreasonably slow in implementing P.L. 106-50. Admittedly, SBA 
has moved forward. The National Veterans Business Development 
Corporation awaits only one more appointment, and funding has 
been secured. In addition, PVA believes the veterans have a 
strong and supportive voice in Bill Elmore and the staff at the 
Office of Veterans Business Development.
    Unfortunately, few other improvements have been made. It is 
the belief of PVA that the culture at SBA, if not anti-veteran, 
is certainly no more than veteran neutral. SBA simply pays lip 
service to supporting veterans.
    S.B.A. has not pushed for the regulations needed to 
implement P.L. 106-50. The missteps of the FAR Council are a 
prime example. Section 502, paragraph 2, clearly states that 
the government wide goal for participation by small business 
concerns owned and controlled by service disabled veterans 
shall be established at not less than three percent of the 
total value of all prime contract and subcontract awards for 
each fiscal year.
    The FAR Council chose to ignore this clear statement and 
instead wrote regulations which only included service connected 
disabled veterans as a part of an overall goal. Where was SBA 
monitoring of the regulation process that allowed a not less 
than three percent to become a goal to only include service 
disabled veterans?
    When it was determined that a technical amendment was 
necessary, SBA did not aggressively pursue this change and, as 
far as PVA is aware, discussed the amendment with only one 
Democratic Member. This again demonstrates SBA's traditional 
indifference to veterans.
    These delays in regulations can be disastrous for veterans' 
businesses. An additional regulation is at OMB and waiting to 
be published. I am told it should be published in the next few 
weeks, nearly two years after passage of P.L. 106-50. These 
regulations apply to Section 402, Assistance to Active Duty 
Military Reservists, and concern the availability of loan 
deferments and disaster assistance funds for small businesses 
who have service members ordered to active duty.
    These regulations need to be implemented quickly. Military 
operations involving reservists have been ongoing, and the next 
two months will see approximately 3,000 members of the National 
Guard and Reserves from 18 states, including myself, mobilized 
for duty with peacekeeping forces in the Balkans. The 
availability of these disaster loans can make the difference 
between a business surviving or failing during a soldier's 
deployment. Mr. Chairman, I want the men and women that I 
command concentrating on the mission and not the condition of 
the checkbook back home.
    There also seems to be some questions whether National 
Guardsmen qualify for these mobilization benefits. A mobilized 
National Guard unit is a federal entity and is treated as such. 
To make a distinction between these two reserve forces is 
unfair.
    Mr. Chairman, what can SBA do to change its direction? PVA 
would like to see, one, special loan product for disabled 
veterans, programs such as micro loans and procurement 
initiatives aimed directly at veterans, particularly disabled 
veterans.
    Two, the expansion of veterans' business outreach. PBA 
fears that with the creation of the NVBDC, SBA now believes it 
need not concern itself with encouraging veterans' businesses 
because someone else can do it. Mr. Chairman, the corporation 
in no way relieves SBA of its obligation to veterans to provide 
congressionally mandated services.
    Third, resources for significant outreach. In Washington, a 
department or office's budget often details its importance. PVA 
awaits the fiscal year 2002 budget of the Office of Veterans 
Business Development. This funding level will be an indication 
of any change at SBA.
    The previous Administration had provided no fiscal year 
2001 funding for the Veterans Office. However, some funding was 
secured by this Administration to allow for some programs. PVA 
views this as a question of priorities, and so often it seems 
that SBA's priorities do not include veterans.
    Finally, we ask the Committee to closely oversee the 
activities of SBA's veterans' programs and require SBA to abide 
by congressional mandate. Unless SBA is held accountable for 
providing quality programs to veterans, it will continue the 
indifference it has shown in the past.
    Mr. Chairman, veterans deserve quality services whether in 
health care, prosthetic devices or advice in training on small 
business ownership. At the SBA, veterans should be the priority 
and not just an afterthought.
    I thank the Committee for this opportunity to present PVA's 
views and would be happy to answer any questions.
    [Mr. Ortner's statement may be found in appendix.]
    Chairman Manzullo. Thank you very much. There is a Major 
General back there going amen, amen.
    Mr. Ortner. Thank you, sir.
    Chairman Manzullo. We have to give them more than 70 days.
    Mr. Ortner. Absolutely.
    Chairman Manzullo. What I hope to do is to either have a 
follow up hearing or assemble everybody in our office, our 
joint offices, to make sure we monitor and give the support 
that you need and make sure the job gets done.
    Our next witness is Anthony--is it called Eiland or Eiland?
    Mr. Eiland. Eiland.
    Chairman Manzullo. Eiland, special assistant for Veterans 
Employment of the Veterans of Foreign Wars of the U.S.
    Mr. Eiland, welcome.

  STATEMENT OF ANTHONY L. EILAND, SPECIAL ASSISTANT, NATIONAL 
  VETERANS EMPLOYMENT POLICY, VETERANS OF FOREIGN WARS OF THE 
                         UNITED STATES

    Mr. Eiland. Chairman Manzullo, Ranking Member Velazquez, 
and Members of the Committee, thank you very much for inviting 
the Veterans of Foreign Wars to have an opportunity to speak 
today before the Committee and also to address how important we 
think that the Small Business Administration's dealings with 
the board is.
    Mr. Chairman, for some veterans the normal routine of the 
job environment is not a practical or feasible solution for 
employment. For these veterans, most disabled, self-employment 
is not just a dream, but also a necessity for ensuring the 
peace of mind that comes from providing a secure atmosphere and 
livelihood for themselves and their family members.
    For these courageous individuals, Public Law 106-50 was 
created to be a tool to enable them to succeed in returning to 
the work force as taxpaying employers with the goal of creating 
more small business to stimulate economic growth in our 
communities. To make this a reality, Congress instituted one of 
the most potentially effective initiatives ever, the Veterans 
Entrepreneurship and Small Business Development Act of 1999 
and, in turn, the Small Business Development Corporation.
    The VFW sees the Veterans Entrepreneurship and Small 
Business Development Act of 1999 as the first step of many in 
repairing the trust between the government and the veterans' 
community. We look forward with hope that not only will this 
letter of the law be protected, but also the purpose of the law 
will be enforced. In addition, it will also help to streamline 
the process to ensure that the veterans community, that the 
veteran and the disabled veteran will be seen as a valuable 
resource and an asset to the economy as a small business owner.
    Mr. Chairman, many veterans have harbored the belief that 
the Small Business Administration has either been blind or 
simply ignorant to their small business concerns, especially 
those of disabled veterans. They feel they have had nowhere to 
turn for support or guidance in establishing private ownership, 
let alone assistance in maintaining a small business.
    They were in turn forced to deal with a bureaucratic agency 
that, in their opinion, did little to address and support their 
wishes, problems or needs, let alone supply confidence and 
faith in long-term solutions in establishing veterans' 
ventures.
    Yet not all this blame should be placed on the shoulders of 
the Small Business Administration. During the mid 1980s, VA 
provisions for small business loans were eliminated from the GI 
bill benefit. Public Law 96-237 required the Small Business 
Administration to provide for special consideration for 
veterans in all its programs.
    Regretfully, however, veterans who have contacted the 
Veterans of Foreign Wars and reported there are no such special 
considerations for them whatsoever at the SBA. This is because 
the Small Business Administration has no direct lending program 
for veterans, and there are no federal development grants for 
veteran entrepreneurs, disabled or not.
    The need for direct financial support in acquiring starting 
capital is the number one request we receive from the veterans 
in respect to small business questions and inquiries. This is 
the reason why the Veterans Small Business Corporation is so 
vital to attacking the heart of this problem to get not only 
answers for veterans on small business questions, but also 
putting them in a position to find sources for financial 
revenue.
    Yet in their defense, the Office of Veterans Business 
Development within the SBA has been making positive strides in 
improving the way they do business. Their relationship with 
other agencies has been a catalyst for change as evidenced in 
their meetings of cooperation with the Centers for Veterans 
Enterprise and the Department of Labor to improve internal 
relations through better communication and fact sharing.
    Another positive change has been their attending sponsored 
meetings with the VSOs such as the Task Force for Veteran 
Entrepreneurship and providing updates of policy status and 
developments. In addition, I would like to say their role as a 
resource has greatly improved as evidenced through our dealings 
with their office. They have been effective and been very 
``hands-on'' in directly assisting veterans recommended by the 
VFW.
    There are still many considerations that need to be seen 
and problems that must be addressed? First, the Veterans 
Business Development Corporation has not had all of its 
positions filled. This needs to be done immediately or as soon 
as possible because this is hindering them from doing the job 
the best they can.
    Secondly, it also risks opening up a door of doubt and 
criticism by thinking they are not going to do anything. This 
factor alone has caused doubt in the uniform communication and 
collaboration among all the involved parties. It does not seem 
like anyone is talking to each other, even though in fact at 
the VSO level we see they are.
    The Veterans Business Development Corporation is finally 
now just getting underway after a long and arduous process. 
Another discrepancy is the failure to have the Advisory 
Committee appointed and put in place. The VFW is very 
disappointed this issue has not been treated with the sense of 
urgency that it deserves.
    This lack of initiative and inaction on the part of the 
Small Business Administration is robbing the board of directors 
of valuable insight and counsel to help focus its energies 
towards raising much needed capital to get the corporation 
moving forward.
    Mr. Chairman, we need to maintain the proper perspective 
that Public Law 106-50, the Advisory Committee and the 
Corporation exist solely for one reason and one reason only; to 
help veterans, especially disabled veterans, establish 
independent small businesses and become as self-sufficient as 
possible.
    Veterans, especially disabled veterans, are a valuable 
resource that has not been fully utilized to its maximum 
potential by the private sector. Therefore, they should be 
allowed to capitalize on their own skills and abilities to 
succeed.
    Thank you. That concludes my testimony. If you have any 
questions, I would be more than happy to answer them.
    [Mr. Eiland's statement may be found in appendix.]
    Chairman Manzullo. Thank you very much. I appreciate that.
    Our next witness is William Crandell, director of 
Government Relations for the Association for Service Disabled 
Veterans.
    Welcome, Mr. Crandell.

   STATEMENT OF WILLIAM F. CRANDELL, DIRECTOR OF GOVERNMENT 
      RELATIONS, ASSOCIATION FOR SERVICE DISABLED VETERANS

    Mr. Crandell. Thank you. Good morning, Chairman Manzullo 
and Ranking Member Velazquez and Members of the Committee.
    The Association for Service Disabled Veterans commends you 
for holding this important hearing today to ask what P.L. 106-
50 is accomplishing. ASDV's goal is to create opportunities for 
service disabled veterans through economic participation. P.L. 
106-50 was the product of a great deal of work done by this 
Committee and the veterans community. Senior civil servants at 
SBA still ignore the mandates of Congress to afford veterans 
special consideration.
    Congress wrote into black letter law a requirement that 
federal agencies pursue a goal of awarding three percent of 
contracts and subcontract awards to companies owned and 
controlled by service disabled veterans. Well, some will, and 
some will not. SBA has allowed agencies to file goals in 
writing--in writing--with as low as zero percent. Without 
regulations, bureaucrats think of laws as cute ideas.
    The FAR Council drafted regulations which said in print 
that everybody could ignore the law and its content. We still 
have no final FAR regulations to make the law operable after 
two years. Congress directed that reports to and from SBA would 
keep separate data on businesses owned simply by veterans and 
those owned by service disabled veterans.
    Once 106-50 was enacted, ASDV and the Bank of America 
negotiated a memorandum of understanding with the administrator 
of SBA to create a veterans outreach program in every Bank of 
America office through the small business development centers, 
the SBDCs, that SBA supports. SBA did not follow through.
    SBA had planned to fund some nine staff at the Office of 
Veterans Business Development and ended up with a shop of only 
six. ASDV urges SBA to restore full funding to the Office of 
Veterans Business Development. We will put more money into the 
coffers than we will take out if you will give us a fair 
chance.
    I have four more points. SBA should perform certification 
of businesses owned by veterans as seamlessly as possible at no 
cost to the business. SBA must enforce the three percent 
contracting goal for every federal agency. ASDV has found 
federal contracting officers willing and eager to support this 
goal, but they are told they have no regulations, no authority 
to give contracts to qualified service disabled veterans.
    Qualify the surviving spouses and children of service 
disabled veterans who take over family businesses for the three 
percent goal in government contracting. It will cost the 
government nothing.
    ASDV is concerned about the direction of the National 
Veterans Business Development Corporation. The corporation 
should use its congressional funding to create a larger capital 
fund for veterans and especially service disabled veterans 
whose access to capital and technical assistance has 
traditionally been limited.
    Invest in making the SBDCs responsive to the needs of 
veteran entrepreneurs. Every federal agency needs to be 
encouraged from above to really look for veteran owned and 
service disabled veteran owned businesses as suppliers. ASDV 
can help them. Nobody responsible for procurement should 
receive a bonus if the agency fails to award its full three 
percent of contracts to veterans as required by law.
    Mr. Chairman and Madam Ranking Member, we have made some 
real progress with the enactment and partial implementation of 
P.L. 106-50, but nothing like what Congress intended. We want 
SBA to serve veterans in good faith. Thank you.
    [Mr. Crandell's statement may be found in appendix.]
    Chairman Manzullo. Thank you very much.
    Our next witness just got here. Rick, it is a good thing 
you were the last person to testify, as opposed to the first.
    Rick Weidman is director of Government Relations of the 
Vietnam Veterans of America. Good morning, and welcome.

 STATEMENT OF RICHARD WEIDMAN, DIRECTOR, GOVERNMENT RELATIONS, 
                  VIETNAM VETERANS OF AMERICA

    Mr. Weidman. Good morning, Mr. Chairman. There is no 
excuse, and I offer none, sir. There were reasons involving an 
unbelievable series of mishaps, including having no idea that 
the pay lot out here has become a permit lot, which 
necessitated a long search for parking, but I do beg your 
pardon, sir, and it will not happen again.
    Chairman Manzullo. I was not giving you a hard time. I was 
just teasing you, you understand. I am going to reset the clock 
for the full five minutes.
    Mr. Weidman. Mr. Chairman, first of all, on behalf of 
George C. Duggins, VVA's national president, I wish to offer on 
behalf of all of us at VVA congratulations on taking over the 
chairmanship of this Committee. It is an important post, and I 
know that based on certainly our experience with you and your 
leadership, extraordinary leadership on Gulf War veterans, that 
you will do right by veteran entrepreneurs and particularly 
service disabled veteran entrepreneurs in the future.
    Congresswoman Velazquez, Mr. Pascrell, thank you very much 
for the opportunity to offer our views here today. Much of the 
history has been recapped by the distinguished colleagues to my 
right, so I will not go through it again here in the oral 
statement except to say the ironic thing of the not good 
history since 1954 of the SBA and veterans and particularly 
during the 1960s, 1970s and most of the time since is that the 
SBA was really born out of the VA.
    It was a very small New Deal agency that was put together 
with the Veterans Business Loans and other programs for 
veterans at the VA by President Eisenhower, and that became the 
Small Business Administration with some added resources. 
Veterans were pushed from the center to the epicenter, if you 
will, of all services. This has harmed not only veterans who 
were would be entrepreneurs and veterans who are entrepreneurs 
within our country. It has harmed America by not taking 
advantage of the extraordinary skills that veterans bring to 
the marketplace.
    The most recent history, as was covered in 1998 in response 
partly to an oversight hearing of a Subcommittee of the full 
Committee conducted by Mr. Bartlett and in cooperation with the 
Subcommittee on Benefits of the House Veterans Affairs 
Committee, then Administrator Alvarez named a task force, if 
you will, of people to look at what special consideration meant 
and make recommendations.
    There was an extraordinary effort on the part of the 
veterans community, SBA staff and other interested parties that 
resulted in 21 recommendations that covered, all facets of the 
SBA, which was delivered just before Veterans Day, 1998.
    The problem subsequent to that was that all of the promised 
action which was supposed to be taken by the end of December or 
beginning of January did not take place, and while we did not 
have contact directly with Ms. Alvarez we did with senior 
staff, including the current acting administrator, and no 
action on anything. We asked that they convene and pull people 
back together to at least discuss where we were, and that also 
fell on deaf ears.
    Thanks to Senator Bond and Senator Kerry, we were given the 
hearing room of the Senate, your counterparts on the Senate 
side, the Small Business Committee, and a number of veterans 
organizations and other advocates came together.
    Out of that came the Task Force for Veterans 
Entrepreneurship, which includes some almost 30 veterans 
organizations, private businesses, other interested parties 
like National Organization of Competency Assurance, et cetera, 
who worked very closely with the staff of the Committee onboth 
sides of the aisle, both on this Committee. Primarily on this 
Committee, but also in cooperation with the House Veterans Affairs 
Committee under the overall leadership of the Honorable James Talent 
and Ms. Velazquez to develop 106-50, which is an extraordinary piece of 
legislation.
    The extraordinary vision put forth is just that: 
Extraordinary. It leads us in the direction that we have been 
wanting to go, providing the adequate assistance, a hand up, if 
you will, to veteran owned businesses and would be veteran 
entrepreneurs and those who need self-employment for the 
future.
    The problem is that the devil is in the details. Not a 
single part of 106-50, with the exception of creation of the 
Office of Veterans Business Development and the appointment of 
Mr. Elmore, has in fact been accomplished. There are two sets 
of regulations that are currently stuck at Office of Management 
and Budget. One is the final procurement regulations that 
contains the ``fix'' that the Committee and Committees on Small 
Business so graciously provided to us late last fall having to 
do with service disabled veterans procurement.
    The other has to do with implementing the assistance to 
members of the Guard and Reserve who are small business owners 
or self-employed who get activated, which is certainly 
important to our overall defense under the total force concept 
with which our military now operates. Both of those are stuck 
in a bureaucratic maze, if you will. We are told that logjam 
will probably not be broken until sometime in the fall.
    Regulations on all the rest of the aspects of P.L. 106-60, 
including activity by SCORE, including activity by the SBDCs, 
et cetera, in fact has not reached the person on the street. 
The man or woman who shows up at the Small Business Development 
Center in Queens or shows up at the Small Business Development 
Center in Illinois does not know if they are not told that 
there are special services there because they are veterans. In 
fact, many veterans do not know where to go.
    The word is not getting out. The actualization of the 
vision put forth by this Committee, by all of you, Mr. 
Manzullo, has not been effectively realized in any manner, 
shape or form.
    As I mentioned, on the positive side there were several 
things. We did get funding for the National Veterans Business 
Development Corporation. We have tremendous confidence in Mr. 
Glassman and his leadership, and I am sure that by the end of 
this year that the National Veterans Business Development 
Corporation will be developing nicely.
    We cannot say that about any other aspects of the bill, 
which is really quite extensive and which when, and I say when, 
implemented will change the whole nature of the way which SBA 
itself and SBA funded entities do business in regards to 
veterans, particularly service disabled veterans.
    There have been no regulations or administrator's orders 
that would implement all of the rest of the aspects of 106-50 
in every area of SBA. To our knowledge, there is no information 
gathering going on in each and every program for the 
administrator's annual report back to you, Mr. Chairman.
    Last, but not least, I would note on that, and then I will 
leave it hopefully for questions, is that we need effective 
regulations and other actions by the Administration. By the 
Administration I mean not just the new Administrator when he 
gets on board and is confirmed by the Senate, but rather by the 
Administration that the three percent minimum goal is just 
that. It is a minimum goal. It is a floor. It is not a ceiling.
    Make it clear to the folks, if I may, who took your three 
percent in black letter law which was established as a minimum, 
and the intent of the Congress was crystal clear, and chose to 
ignore it and put their judgement ahead of all of the Members 
who on a bipartisan basis put this legislation into effect.
    It is outrageous that they should be allowed to do so, Mr. 
Chairman, and we would urge you to bring it to the attention 
directly of the President in order that he may start to take 
charge and start to turn this around by giving clear orders to 
SBA that you will implement all aspects of 106-50 and not just 
to the SBA, but to the heads of all other departments and 
agencies.
    In other words, do not leave this time bomb which was not 
created by Mr. Barreto, in whom we do have confidence in from 
what we know of him, as members of our task force have met with 
him.
    Chairman Manzullo. You are three minutes over time.
    Mr. Weidman. I apologize, Mr. Chairman, for going over 
time,----
    Chairman Manzullo. That is all right.
    Mr. Weidman [continuing]. But I did want to bring that out.
    Chairman Manzullo. I understand that.
    [Mr. Weidman's statement may be found in appendix.]
    Chairman Manzullo. Let me first of all thank you all for 
coming. Let me tell you the way I look at this thing. I have 
problems with Congress passing laws and then leaving it up to 
bureaucracies to draft regulations. That is garbage. I have 
instructed my staff to prepare an amendment to this bill and 
try to expedite it so that the legislative language is self-
executing. I am not going to wait for the bureaucrats.
    I did not come here to wait years to pass a law and wait 
for some bureaucrats to issue regulations. That is not what 
this thing is about. This is a simple bill. It is very simple. 
I have seen regulations issued that simply parrot the language 
in the bill.
    The fact that the Civilian Agency Acquisition Council said 
that they could ignore the law and its intent is because the 
law is based upon fulfillment when the regulations are issued, 
so I am going to ask that the six people here get together on 
your own and come up with self-executing language.
    In other words, in this bill where it says the regulators 
shall, you draft for me your idea of what the language should 
be. Are you with me? Do you understand what I am saying?
    I am not going to wait for the SBA on this. I am not going 
to wait for anybody. When a war happens, we do not put people 
on hold to send them off to battle. Here is language in the 
testimony, and I believe, Anthony, it is yours. No. Bill 
Crandell. It says absent regulations, bureaucrats think of laws 
as cute ideas. Do you know where all the money is going? It is 
to pay bureaucrats to issue regulations.
    I would like you to work on that. If you could get us 
language within 30 days, and I will sit down with Mrs. 
Velazquez and see if we can come up with a bipartisan bill on 
this and try to expedite this and get this language through.
    The second thing----
    Ms. Velazquez. Mr. Chairman, if I may?
    Chairman Manzullo. Yes?
    Ms. Velazquez. Let me just say this to you. You know, the 
hearing and the purpose of this hearing today is to find out 
where we are on this legislation and the execution of this 
legislation. Of course, yes, welcome to Washington. There are a 
lot of bureaucrats here.
    Do you know what? When we have legislation that creates a 
new program, it does not happen overnight, the implementation 
of such a program, so I think that the hearing today will give 
us some light as to where we are and what needs to be fixed.
    Let me just remind you, and I welcome you to read a study 
that my staff conducted last year about the failure of the 
federal government in terms of the procurement opportunities 
and the goals for small businesses, minority owned businesses, 
women owned businesses, disadvantaged owned businesses. Five 
percent is the statutory goal.
    Not even 1.5 percent was achieved, so this is not only 
about your program. This is something that we need to correct 
about different other programs. This is just not the failure of 
the SBA regarding your program.
    We need to do a lot of correction here that might require 
future legislation, but in terms of the implementation of this, 
the purpose today is to find out where we are. If we need to 
bring OMB or if we need to bring FARC here and find out where 
we are and what needs to be done, then we will do that for 
every single thing that we have not accomplished.
    This law was signed in 1999. The money is there that you 
made reference to. You said that the previous Administration--
it was not the previous Administration--did not appropriate the 
funds for the first fiscal year. It was not the previous 
Administration. It was the people here in Congress, those who 
were in charge of the appropriation process, and they were not 
Democrats.
    Thank you, Mr. Chairman.
    Chairman Manzullo. You can tell there is a lot of passion 
up here.
    Ms. Velazquez. Sir, this is a bipartisan Committee, and we 
work in that fashion. This legislation was not passed only by 
Republicans. We worked collectively because we need to bring 
fairness and equity to veterans, but do not come here and try 
to bash some previous Administration. Just let us bring the 
facts and see where we are.
    Chairman Manzullo. I do not think that was the issue. The 
issue was that it has taken two years, and no one has lifted a 
hand to draft a regulation. A lot of these people are career. 
They are in under Republicans and Democrats. I do not care who 
they are.
    I just think that there has to be a way to pass laws to 
make these things work, as opposed to relying upon the 
regulators to come up with the standards.
    Ms. Velazquez, I want to tell you how much I appreciate 
your leadership on this. Our full Committee is going to be 
spending probably 50 percent of our time on procurement. We had 
a very highly spirited hearing on Berets.
    With the goals for fiscal year 2000 of 23 percent of small 
business procurement, that is $40 billion coming out of DOD, 
five percent for small disadvantaged business, five percent for 
women owned business. Regardless of how you feel about whether 
these are called set asides or whatever, what we have decided 
to do at the full Committee level is to focus on the 
procurement of the federal government.
    With the issue of the Berets, it is a disgrace what DLA has 
done, and now most of those seven contracts have been 
terminated because of poor quality or because of foreign parts. 
I mean, this is $40 billion worth of money that should be going 
in the hands of the small business people.
    We share your concern, but I also want you to do something 
else besides the language. I want you to prepare for me a two-
page guideline that can be handed out to any veteran in this 
country on how a veteran can obtain assistance to start or 
continue in his or her own small business. We will prepare the 
document, and we will submit it to the veterans association, 
and we will ask them to adopt that language in getting it out 
to the VA centers.
    We have an opportunity here to do something. We obviously 
have a lot of energy, a lot of competence. Major General, I 
understand your background is in procurement. We will rely upon 
you heavily, sir, in this constant battle that we have against 
the government.
    Mrs. Velazquez.
    Ms. Velazquez. Mr. Ortner, I would like for you to clarify 
something that I read in your testimony. Are you advocating for 
disabled veterans to be included in the 8(a) program?
    Mr. Ortner. Yes, ma'am. That is more of a long-term goal. I 
actually had a portion concerning that in my oral testimony. I 
was going to go into it, but did not have the opportunity.
    Ms. Velazquez. I read it. Let me just share this with you. 
You know, you came here last year, and you asked for a 
contracting procurement goal and subcontracting goal. In some 
cases we have provided you greater advantages than what 
participants in the 8(a) program enjoy.
    For example, 8(a) firms receive no special treatment as far 
as lending, and now you come back to us and ask us to be 
included in the 8(a) program. I have to tell you that that is 
not for me. That is my position.
    I am going to give you one number only so that you realize. 
You know, the 8(a) program has been designed for minority 
businesses to enter the federal marketplace and economically 
and socially disadvantaged businesses. We have already seen 
dollars to the 8(a) program declining, $500 million from fiscal 
year 1999 to fiscal year 2000. Adding additional groups to the 
8(a) program is only going to mean fewer contracts for all 
those who are participating in the 8(a) program.
    Sir, I do not think that that is a good idea. That is my 
position. We could discuss it further, but every study that we 
have conducted throughout the federal contracting opportunities 
in the federal government is showing us that every year less 
and less contracts from the federal government are going to the 
8(a) participants.
    Mr. William Elmore, in your written testimony you stated 
that the number of SBA 7(a) loans to veterans declined by 
almost 50 percent from fiscal year 1995 to fiscal year 2000. 
Last week we conducted a budget hearing, and Mr. Whitmore, who 
was representing the Administration, was also using the same 
figures to show the decline in 7(a) loans since 1995.
    If you go back to 1992, you will see that the 7(a) loans to 
veterans increased substantially, over 130 percent, from fiscal 
year 1992 to fiscal year 1995. Much of that increase occurred 
in fiscal year 1995 when the one-page application was 
implemented as part of the loan doc application.
    The decrease that you speak of in your testimony began in 
fiscal year 1996 when the fees for the 7(a) loans increased, 
and now the President is proposing to raise the 7(a) fees for 
fiscal year 2002.
    You also stated that as a result of this and other declines 
in program activity levels, you were reviewing the program to 
ensure that it is properly serving all small businesses, 
including veteran owned businesses. Does this review include 
the present proposal to raise fees on veterans?
    Mr. Elmore. The review that we have conducted thus far has 
focused on SBA services and resources, including loan products, 
that date back in some ways back to 1973. Most of the data we 
have been able to find so far dates back to 1990; what we have 
looked at is veteran participation in the 7(a), in the 504, in 
what used to be the direct and HAL loans, and also in the micro 
loan program.
    The recommendations that we have developed that are 
presently working through the SBA and then ultimately through 
OMB and then to Congress tries to address what we have seen as 
a decline in veteran loans generally across the agency.
    I did not look at, nor did I know I should look at, the 
implementation of fees in 1996 that may have impacted loans, 
but we will certainly look at that.
    Ms. Velazquez. But do you now see a correlation between the 
implementation of fees and the decrease in 7(a) loans?
    Mr. Elmore. I did not look for that, and I am not sure that 
I would see that. I certainly have seen a reduction in loan 
activity for veterans, and it has significantly accelerated 
over the last five years. You are right. It was not just 1995.
    Ms. Velazquez. Particularly in 1995, sir, when fees were 
imposed to the 7(a) loan program.
    I hope that you go back, review this factor, and after that 
I welcome that you advocate on behalf of small businesses and 
veteran small businesses and ask the Administration not to 
impose fees because every time that we impose fees on SBA, the 
7(a) loan program, that will drive veterans away from that 
program.
    Mr. Elmore. I should mention that as we reviewed the loan 
products we have understood now that about 60 percent of the 
loans that go to veterans are under $150,000, so I do not 
believe there were fees increased on that level of loan.
    I have not year by year gone back to see if that number has 
increased or decreased in percentage, so we will do that as 
well.
    Ms. Velazquez. Sir, 1996 was from the bottom up,----
    Mr. Elmore. Okay.
    Ms. Velazquez [continuing]. So I will ask you to go back 
and check those numbers.
    Mr. Elmore. We will do that.
    Ms. Velazquez. Thank you.
    Chairman Manzullo. Thank you. Let me get Mrs. Kelly in 
before the bells go off and get the rest of the Members.
    Mrs. Kelly. Thanks, Mr. Chairman.
    Mr. Elmore, I would like to know what the SBA's level of 
procurement is from veterans. Do you have that figure?
    Mr. Elmore. The SBA's procurement itself?
    Mrs. Kelly. Yes. The SBA procures things.
    Mr. Elmore. Yes, ma'am.
    Mrs. Kelly. How much do they get from the veterans? How 
much does your----
    Mr. Elmore. At this point----
    Mrs. Kelly [continuing]. Office for Veterans Affairs 
procure from veterans?
    Mr. Elmore. Since I got there, we have done no procurement 
out of my office specifically. We are certainly preparing to do 
some procurement, and what does not go through our district 
offices is targeted to veteran owned small businesses, but we 
have not let any contracts out yet.
    Mrs. Kelly. In the past, if you look at the past records, 
have you any information on that?
    Mr. Elmore. I do not have that information, but I will ask 
my staff to dig it out.
    Mrs. Kelly. Get that information for us, will you?
    Mr. Elmore. I will do that.
    Mrs. Kelly. Is there a set aside for disabled veterans?
    Mr. Elmore. No, ma'am, there is not.
    Mrs. Kelly. So it makes no difference? It is just a veteran 
or a disabled veteran either one?
    Mr. Elmore. From my office's perspective, we will look 
first to a service disabled vet. Not finding one that could 
deliver the good or service or product we need we will then 
look to a veteran owned small business. If we do not find that, 
we will go out beyond that.
    Mrs. Kelly. Is there any special effort made in that 
search?
    Mr. Elmore. Certainly there is a special effort by me and 
my staff. We have identified 80,000 veteran owned small 
businesses, and they will be the ones that we will notify when 
we have procurement opportunities specifically out of my office 
if they want to bid on those or compete for those.
    Mrs. Kelly. How do you notify them?
    Mr. Elmore. So far we have e-mail addresses for about 
20,000 of those firms, and we have already been notifying them 
of other procurement information and the activities of my 
office. If we need to, we will go out in writing to them.
    Mrs. Kelly. But so far you have not?
    Mr. Elmore. No, we have not, ma'am.
    Mrs. Kelly. Will you do that?
    Mr. Elmore. Yes.
    Mrs. Kelly. I think it is very important that the veterans 
get the information early enough, that anyone from the agency 
gets the information early enough that they can put together a 
bid for the product that you are looking for and specifically 
with the veterans, especially if you are dealing with disabled 
veterans who may have reasons to have to have something else 
done.
    For instance, if they have problems with hearing or 
problems with sight, there may be a need for an earlier 
notification, and I think it is very important that your agency 
focus on that.
    Mr. Elmore. We will do that, ma'am.
    Mrs. Kelly. I do not know if you are aware of it, but you 
may not know that I offered an amendment to the bill that was 
accepted by voice vote in the markup that would require you to 
put together information on the veteran participation in the 
federal government procurement process; that you would collect 
that and disseminate that to procurement officers.
    I am concerned about educating procurement officers about 
your intent at the Small Business Administration to do this 
with veterans. To my way of thinking, veterans have a higher 
priority in the procurement process than almost anyone else in 
the entire United States.
    I would hope to hear from you that you are going to 
implement a high education process, not only here in this 
country, but internationally because goods can be shipped on an 
international basis, and our agencies and our representatives 
in the various nations are also in the procurement process. 
Will you do that?
    Mr. Elmore. Yes, we will. We are planning a training 
conference late this summer at the end of August, and we will 
include procurement, procurement officers, contract officers 
and such as part of that conference.
    Mrs. Kelly. Mr. Glassman, I just want to ask you. Has the 
Veterans Business Development Corporation raised any funds, 
tried to raise any funds, in the interim? I read your 
testimony. You have this master plan to meet the objective of 
raising money. Have you done that? Have you done anything in 
the interim?
    Mr. Glassman. We are putting together proposals to go out 
in a whole range of national funders. We would like to go out 
to with grant proposals to probably 20 different institutions, 
so initially we would probably go out in a context of seeking 
foundation funding for people who areinterested in 
entrepreneurship, people who have a focus on disability. Beyond that, 
our plan is to eventually go to some of the chief vendors, to VA, to 
DOD.
    Mrs. Kelly. But basically what you are saying is your plan, 
you intend to, you have not done?
    Mr. Glassman. We are in the seventieth day of our funding, 
so we have----
    Mrs. Kelly. I understand that.
    Mr. Glassman. We are commencing to hire the folks that will 
do the fund raising.
    Mrs. Kelly. I would hope you do that rapidly. There is a 
need to get this ramped up and off the ramp. We have to get 
this thing going. I hope that you will do that very quickly.
    I yield back the balance of my time, Mr. Chairman.
    Chairman Manzullo. Okay. Mr. Pascrell, you are next.
    Did you want to get a quick question in? That is between 
the two of you.
    Ms. Velazquez. Yes. Thank you, Mr. Pascrell.
    Mr. Glassman, in your written testimony you stated that 
106-50 was less specific on the direction the corporation shall 
take to implement the directive requiring the corporation to 
become self-sustaining within a four year period.
    This direction gives the corporation the independence to 
achieve self-sufficiency in a variety of ways and the 
opportunity to evolve into an organization with a broad reach 
into the veterans community. Does the rest of the panel agree 
with this view of the independence provided to the corporation?
    Mr. Crandell. If I may, that was one of the more important 
parts of that construction as far as ASDV was concerned. It 
needed to be--needs to be--a very independent agency.
    Congress still and the Presidency still have the power of 
appointing new board members when that comes up. It is not 
beyond control obviously, but it becomes a very independent 
entity that will be able to carry out its mission as the 
directors see fit.
    Ms. Velazquez. Yes, sir?
    Mr. Weidman. It was specifically designed that way in 
working with Mr. Talent and your folks. Ms. Desiree Linson, 
from your staff, Congresswoman Velazquez, helped a good deal on 
that.
    It brought a lot of questions because there has never been 
a federally created entity precisely like the National Veterans 
Business Development Corporation. It is truly designed to be a 
public/private partnership and to have the ability in fact to 
not just raise money in the form of grants and donations and 
for services, but receive funds back which will then be plowed 
right back into helping other disabled veterans and other 
veterans in general.
    It deliberately at least from our point of view within the 
veterans community was nebulous, and I believe that that was 
also Mr. Talent's and your intent insofar as we understood it 
and similarly with Senator Bond and Senator Kerry.
    Ms. Velazquez. Do all of you still support the self-
sustaining provision within the law?
    Mr. Weidman. We would urge, from Vietnam Veterans of 
America, that the match requirements be delayed a year because 
the funding, initial funding, was delayed; therefore, to give 
them more time.
    I will say in all of the communications we have had with 
Mr. Glassman and with his board, we have urged him not to think 
in terms of $4 million match money, but think in terms of $40 
million and within just a very short period of time, like less 
than five years, in terms of $400 million.
    It is in fact possible. It is an idea whose time is right 
that will bring creative activities that could not, frankly, be 
done by any federal entity to the problems that are needed to 
make sure that we assist all sectors of the veterans community 
wherever they may be from New York City to Illinois to southern 
Jersey.
    Ms. Velazquez. Any other comments? Yes, sir?
    Mr. Glassman. If I could make a comment? I feel as though 
that probably what you refer to as vagueness is probably one of 
the more empowering pieces of the legislation.
    Ms. Velazquez. Sure.
    Mr. Glassman. To me, it is going to allow us culturally, 
financially, presentationally, to most resemble the private 
sector, to think out of the box, if you will.
    The question a few moments ago from Congresswoman Kelly I 
thought spoke to the opportunity. SBA's total budget I was 
reading is $30 billion. Three percent, $900 million, should go 
to service disabled veteran owned businesses.
    It would be our goal to find and build the veterans 
electronic marketplace, a platform on which you will find every 
conceivable set of services and products that service disabled 
veteran business run.
    When we build such a platform, we economically, our 
corporation, will start to develop the self-sustaining 
revenues. To think of business engines, and we could if I had 
endless time go after one idea after another.
    To think about a whole set of business engines is 
ultimately to complement what I call just the straight fund 
raising. There is only so far you are going to get on 
patriotism. You better have some solid business ideas. This 
better be a venture in which people can see the self-sustaining 
characteristics to be successful.
    Ms. Velazquez. So, Mr. Glassman----
    Yes, sir?
    Mr. Crandell. If I might just comment on that electronic 
enterprise view? For service disabled veterans, you have in an 
awful lot of cases people who work best in an environment of 
self-employment or an environment where they can sit at 
something electronic. There is a lot that folks can do in this 
direction.
    Ms. Velazquez. One last question.
    Chairman Manzullo. Let me get on to Mr. Pascrell, and then 
we can come back.
    Ms. Velazquez. Mr. Chairman, just related to the same 
question.
    Chairman Manzullo. It is up to you. That is fine. It is 
your time.
    Ms. Velazquez. At the end of the fourth year, you will not 
come back to us saying we need more money?
    Mr. Glassman. That is my fervent goal is to come back to 
you and only be asking for your support for ways in which we 
can become more commercially viable, but not to ask for any 
additional funding. We may ask you for lots of things, but not 
for money.
    Ms. Velazquez. Stakeholders?
    Thank you, Mr. Chairman.
    Chairman Manzullo. Those are great questions.
    Ms. Velazquez. Thank you.
    Chairman Manzullo. Mr. Pascrell?
    Ms. Velazquez. The mood in Washington is fiscal 
responsibility, right?
    Chairman Manzullo. That is correct.
    Mr. Weidman. Mr. Chairman, if I might just add to that? We 
may not come back and ask you for more money for the National 
Veterans Business Development Corporation, but we may indeed 
come back and ask you for more money for the Office of Veterans 
Business Development.
    $750,000 simply does not cut it in terms of what is needed 
to help the entire agency and indeed the whole federal 
government implement 106-50, so we will be coming to you for 
more funds and support in that effort, but it will be for the 
main force activity that would operate out of the 
administrator's office and out of the associate administrator's 
office, ma'am.
    Mr. Pascrell. Thank you, Mr. Chairman.
    I want to associate myself with the words you just heard 
because there was a change in funding in terms of the 
difference between the office and corporate activities. We need 
to understand in 2001 what that difference is. $750,000 speaks 
for itself. It speaks for itself.
    I also want to associate myself, Mr. Chairman, and thank 
you for having this hearing today, with Congresswoman Kelly 
concerning veterans' preferences and three percent. We talk 
about veterans' preference in terms of personnel throughout 
many states of the union. We talk about veterans' preference in 
terms of procurement, and that definition, the meaning of that, 
is changing every year in terms of our expanding possibility.
    My first question is to Mr. Elmore. Are you able to fulfill 
your responsibility under P.L. 106-50 with the current staff 
allotment?
    Mr. Elmore. 106-50 is, from my view, a very comprehensive 
bill. We are implementing. I think it really becomes a matter 
of the time frame that it takes to accomplish everything the 
law intends.
    I am enthused that the new Administration, who pays 
particular attention to veterans in small business, is going to 
support the kinds of resources we need to fully implement 106-
50, but, bluntly, it is taking some time, and it is going to 
take more time.
    Mr. Pascrell. So you can fulfill the responsibilities with 
the present staff that you have?
    Mr. Elmore. I can fulfill them, but we are working 
weekends, working lots of hours, and I am probably going to 
wear some people out.
    Mr. Pascrell. I can only interpret your answer to be no, 
you cannot.
    Mr. Crandell. Mr. Pascrell, if I might speak for the 
veterans community, no, they cannot.
    Mr. Pascrell. That is what I figured.
    Mr. Crandell. We all know the position that Bill Elmore is 
in this morning.
    Mr. Pascrell. I am sorry?
    Mr. Crandell. We all know the position that any 
administrator is in this morning with regard to that question, 
but I think he has given you a----
    Mr. Pascrell. What possible position other than telling us 
what it is? What other alternatives are there?
    Mr. Crandell. I think a number of us would hate to be 
federal administrators who needed to tell you no to that.
    Mr. Pascrell. Really?
    Mr. Crandell. I think it might be a rule of the game.
    Mr. Pascrell. Well, that is hopefully what we want to cut 
through and get to the nucleus and the center of, and that is 
why I asked the question.
    I was not asking the question to put you on the hot seat. 
You are already there. I asked you the question because I think 
it is pertinent to all that we have discussed on this Committee 
through various discussions on different issues as to budgets, 
to parts of the SBA and your specific responsibilities, and I 
think it is an important question. I think that the responses 
speak for themselves.
    Let me go on to my second question, Mr. Elmore.
    Mr. Elmore. Yes, sir.
    Mr. Pascrell. Many of the requirements of this 
comprehensive law are being fulfilled. You have touched upon 
this, but how is the SBA advertising these services to 
veterans?
    You know, when we dealt with part of the new veterans law 
bill that has passed through the House of Representatives 
sponsored by Representative Smith from New Jersey, the chairman 
of the Veterans Committee, there is a part of that legislation 
which deals with the veterans right to know, which we were able 
to get into that, and I think vets have a right to know what is 
available, what benefits there are that many times they do not 
take advantage of. Fifty percent of the veterans do not know 
what their benefits are, and I am being charitable with that 
number.
    The question I am asking you is how are you deciding to get 
out and advertise particularly in business matters what is 
available? You started to talk to us about that. You made a 
list of examples of outreach.
    I think that the best point of contact with veterans are 
health and hospital facilities where this information should be 
made available when a veteran does not come in to look for such 
information, but we provide it to him, and this usually leads 
to a dissemination of information. Have you tried that?
    Mr. Elmore. We have tried it in cooperation with one of our 
partners in the MOU. We are working with the Department of 
Veterans Affairs, also with the Department of Labor, of course, 
with SCORE and the ASBDC as well, to try to ensure that the 
information does get out there.
    I will tell you that I am not completely satisfied that 
there is enough yet. I think we do need to reach to the broader 
veterans community, and I think we also need to reach to the 
next veterans, i.e., the men and women who are still serving 
this nation, and try to ensure that they also have access to 
the information.
    Incrementally we are getting there, but, bluntly, we have 
not gotten completely there yet.
    Mr. Pascrell. We have a database of veterans. In my 
district there are 40,000 veterans. We have a database. You 
have a database of who these veterans are throughout the United 
States of America for the most part. It is not perfect. No 
database is perfect.
    You know, I often wondered what it would take to send 
veterans, individual veterans, rather than wait until they come 
in to be serviced and then tell them what else is available, 
which we do now.
    Mr. Elmore. For the most part.
    Mr. Pascrell. I often wondered what it would cost. Is that 
up front cost really worth it? Is it not really worth it to 
disseminate this information? I know the Veterans 
Administration has talked about well, then we will have a run 
on all of our services. Exactly.
    I think this is important, particularly in the area of 
health where we are talking about closing down facilities 
because they are under utilized because the people that can 
utilize them do not know how to utilize them. It is almost 
bordering on criminal, Mr. Chairman.
    I have one more area.
    Chairman Manzullo. What I would like to do is to let Mr. 
Phelps have five minutes, and then we can take more time. I 
just want to make sure everybody----
    Mr. Pascrell. If I could just finish out my last question?
    Mr. Elmore. Could I respond, if you do not mind, to Mr. 
Pascrell's points?
    Chairman Manzullo. Yes.
    Mr. Elmore. There are two things. First off, I have been 
privileged to be the SBA's representative at the corporation's 
board meetings, and I think they will become the database, if 
you will, for where the veterans are and whether they are 
findable. Bob addressed that earlier.
    For the other point, I will be a little bold here. I would 
love the opportunity to disseminate information about our 
services and programs through the newsletters of Members of 
Congress. I think that might present one of the very best ways 
that we could reach the breadth and the depth of the veterans 
community across this great nation.
    Mr. Pascrell. Mr. Chairman, we have become the satellite 
offices for the INS. What would be a much more valuable 
situation to America is if we become satellite offices for all 
of our veterans.
    My final question is this; very quick and very simple. 
Would you support the waiving of all fees to all veterans with 
regard to business applications and proposals? Can you support 
that?
    Mr. Elmore. I certainly cannot speak for the next 
Administrator. This is one of the points that we have discussed 
in the office, but I need to maintain obviously as much 
flexibility for my next boss. That is one of the things that I 
will talk specifically with him about.
    Mr. Pascrell. Mr. Chairman, will you please entertain the 
possibility of us getting a bipartisan legislation to waive all 
fees for veterans with regard to the SBA?
    Chairman Manzullo. We will entertain it, Mr. Pascrell. The 
problem is that once you waive it for one group, then you have 
all the other groups lining up. You have to figure out where 
you are going to go on it.
    Mr. Pascrell. Mr. Chairman.
    Chairman Manzullo. Remember that we are on the same page--
--
    Mr. Pascrell. Right.
    Chairman Manzullo [continuing]. With regard to getting the 
correct subsidy rate for the 7(a) Loan Program.
    Mr. Pascrell. Right.
    Chairman Manzullo. Once that model and the correct rate 
comes in, that will lower it for everybody.
    Mr. Pascrell. I would say though----
    Chairman Manzullo. Appreciate that.
    Mr. Pascrell. Mr. Chairman, you would agree, and I agree 
and I associate myself with your remarks, but I think that you 
would agree with me when I say you would have every other 
group. The fact is that the veterans are a different group. Let 
us not put them in with all the others.
    Chairman Manzullo. Bill, I agree with that.
    Mr. Pascrell. You agree with that. I heard you say that.
    Chairman Manzullo. That is why we are having this hearing.
    I want to go on to Mr. Phelps.
    Mr. Phelps. Thank you, Mr. Chairman, for your interest and 
aggressiveness in this area and panel members. Sorry I was a 
little bit late. I am trying to catch up for fear of 
duplicating questions.
    Clarify something for me, Mr. Chairman. I am from Illinois. 
We have a tendency to get right at the root of the problem and 
make things maybe over simplified. I heard him say this is a 
simple bill. I heard Mr. Crandell say, I believe, that it is 
comprehensive. Those are not the same to me.
    If it is comprehensive or simple, Mr. Chairman, 
comparatively speaking how is this implementation time table to 
other such legislation on track? Do the advocacy groups tell 
us?
    Chairman Manzullo. If you would yield, the Ten Commandments 
are comprehensive, but it is also simple. The bill's intent is 
simple, and they are comprehensive at the same.
    Mr. Phelps. I just hope that whoever is in command of 
making sure that this legislation is implemented, whether it 
hinges on lack of funding or funding that was there and someone 
has not moved when it was there or in lieu of the cuts that may 
be affecting what happens, whatever is in play with all this, 
you know, we need to know.
    I think you people are key in this whole structure to be 
able to tell us what we can do through legislation because we 
have a tendency to want to pass legislation to improve things 
and prove to people that we care, whether they recognize it or 
not, but we may complicate the whole process while you are on 
the verge of implementation.
    I do not want to do that. I saw that happen back in the 
state legislature where I came from in Illinois. We just have a 
tendency to do that even with the sincerest intentions.
    Can anyone associate their remarks to where are we 
realistically on such a kind of bill comparatively speaking?
    Mr. Weidman. If I may suggest, Mr. Phelps, as the Chairman 
noted, Public Law 106-50 is both comprehensive, and yet it is 
straightforward and simple. Much of the law is very close to 
being self-executing, and we worked very closely with the staff 
of this Committee to make sure that it was close to self-
executing.
    In fact, the Secretary of Transportation could pick up that 
section on procurement and implement it right now on the black 
letter law. We will be glad to follow through and make sure and 
certainly work with Committee staff on both sides of the aisle 
to make sure everything is there.
    Insofar as the provisions that affect every single program 
of the SBA, they have not issued a directive. They have not 
issued an administrator's order. They have not done any 
guidance or any training of their own staff; never mind the 
small business development centers, et cetera, and SCORE and 
right on down the line.
    Mr. Phelps. And it is not because they do not have the 
resources to do that?
    Mr. Weidman. It is primarily something of will, we would 
suggest, Mr. Phelps.
    Not a single one of the 21 recommendations. A number of the 
folks at this table worked very hard on the task force, and we 
are grateful to Ms. Alvarez for the opportunity, but not one of 
those 21 recommendations was ever implemented.
    No administrator's order came, and it is currently not in 
effect for implementing Public Law 93-237, Special 
Consideration. We could go on and on.
    Chairman Manzullo. Could you yield? Could you yield on 
that?
    Mr. Phelps. Sure.
    Chairman Manzullo. Is that under your jurisdiction, Mr. 
Elmore, to issue the administrative orders----
    Mr. Weidman. Administrative orders would have to come from 
the administrator him or herself, sir.
    Chairman Manzullo. What is it, a letter?
    Mr. Weidman. It is essentially----
    Mr. Elmore. If I might? In 1983 or 1982, excuse me, the 
then Administrator Sanders issued an Administrator's order to 
implement special consideration for veterans, their dependents 
or survivors with a specific series of steps and things that 
would be done.
    The regulations that flowed from that order were eliminated 
in 1995, and we have discussions now about going back and 
revisiting those. The recommendations that I am preparing 
presently for the next Administrator I will urge him to include 
in a new administrator's order. Bluntly, I have not had an 
Administrator to go to.
    Chairman Manzullo. So that is what you are waiting on?
    Mr. Elmore. That is correct.
    Mr. Phelps. So where is the Office of Advocacy status? What 
do they say? Do they have everybody in the same room, the 
staff, and say look, this is what the goal is? Let us report 
back. The time table is this. Is that happening?
    Mr. Elmore. The Office of Advocacy is engaged in conducting 
research about veterans' participation with SBA programs and 
other programs and the kinds of businesses, they own those 
kinds of things and we are cooperating with them on that. 
Beyond that, I cannot speak for the Office of Advocacy.
    Mr. Phelps. But even that brings me to a concern just 
glancing without having the time in questioning the accuracy of 
veteran owned businesses. We say we have 300,000 service 
disabled veteran owned businesses, and yet the recent ProNet 
search only shows that there are 2,532 such businesses listed.
    Mr. Elmore. If you go back, and I went back and did a 
review of all the materials I could find for at least the last 
11 years of SBA programs. I went back further than that. I went 
literally back to 1953.
    For example, the census data that is now available on other 
categories of small business ownership from 1997, I believe it 
is from memory, did not include veterans information. The 1992 
and the 1988 information did.
    Everywhere you look there is a significant lack of timely 
information regarding veterans. This is why my office is in 
fact developing specific recommendations and working with each 
office in the SBA to at least start gathering the right kind of 
data.
    The data is not there. I readily admit that. We readily 
admit that. We are trying to change that now.
    Mr. Phelps. I have no other further questions. It is pretty 
lengthy, I am sure.
    Mr. Chairman, if it is true, following Mr. Pascrell's 
comments, that our offices could be used as satellites at least 
for awareness and so forth, and I never use the franking 
privileges, the newsletters, in my office. I did in the State 
House. It can border on campaign abuse, I think.
    You know, if it is true that we can serve that niche, if 
they can just transfer the funds to our office to get that done 
I would be willing to consider franking.
    Chairman Manzullo. I do not send out a newsletter either.
    Let me conclude. We have asked for a couple of things. The 
first thing is that if the five or you or six of you or whoever 
else you need could get together and come up with draft 
legislation--I mean, feel free to use our office; we can vet it 
through the Office of Legislative Counsel--to make this entire 
bill self-executing. That is the first thing.
    How much time do you think you need on that? Thirty days? 
Sixty days?
    Mr. Weidman. Thirty is plenty, sir.
    Chairman Manzullo. You can do it in 30 days? Okay.
    Then the next thing is maybe a brochure exists with the VA. 
I do not know. There is so much literature out there, and it is 
so confusing. A brochure that would say you are a vet, and you 
want to go into business. Something simple like that.
    Why don't the six of you sit down and devise that? Come up 
with the actual brochure itself, even though the information in 
there may yet not be available because Mr. Glassman's 70 day 
old organization needs a little bit more time to get going on 
it, but if you could do that within the same period of time 
then we have some guideposts.
    Mr. Weidman?
    Mr. Weidman. Mr. Chairman, I would assume that you would 
not object. I would be remiss in my role as current chairman of 
the Task Force on Veterans Entrepreneurship, which includes all 
those groups, and we also work very closely with the American 
Legion, even though----
    Chairman Manzullo. That would be fine.
    Mr. Weidman [continuing]. They are not formally affiliated. 
We would like to work through that group and make sure that we 
get there with a united front behind you and Ms. Velazquez if 
we may, sir.
    Chairman Manzullo. That is excellent. Let us come up with a 
product ourselves.
    A third thing is, Mr. Elmore, I think you can relate to 
this. Whenever a business person gets something from the 
government it is put over here, and then the political 
solicitations for money are put over here, and then the bills 
are put over here. Normally, when I practiced law and I would 
get something from the Department of Agriculture. I did not 
read it.
    Back home we have a huge exporting congressional district. 
We bring in from time to time Trade Counsels General to have 
partnerships with foreign countries. We will send out 1,100 
solicitations, and five people respond.
    You know, we can identify every single veteran business. 
You can send a mailing to every single one. The response rate 
would probably be about the same. I am not saying it should not 
be done, but e-mail is absolutely incredible. Twenty-five 
percent of the people you have identified, Bill, are on the e-
mail, which is instant messaging. One person types a message, 
and you push the button. There it goes with hardly any cost to 
it.
    It is not just so much trying to communicate with the 
veterans. It is the best way to do it. Someone here testified 
about some new technologies of communicating with those 
veterans. That really has to be part of it. Whatever you can 
do, we are open to suggestions.
    Again, we want to thank you for coming here. We appreciate 
your testimony.
    This Small Business Committee is adjourned. Thank you.
    [Whereupon, at 11:34 a.m. the Committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3751.001
    
    [GRAPHIC] [TIFF OMITTED] T3751.002
    
    [GRAPHIC] [TIFF OMITTED] T3751.003
    
    [GRAPHIC] [TIFF OMITTED] T3751.004
    
    [GRAPHIC] [TIFF OMITTED] T3751.005
    
    [GRAPHIC] [TIFF OMITTED] T3751.006
    
    [GRAPHIC] [TIFF OMITTED] T3751.007
    
    [GRAPHIC] [TIFF OMITTED] T3751.008
    
    [GRAPHIC] [TIFF OMITTED] T3751.009
    
    [GRAPHIC] [TIFF OMITTED] T3751.010
    
    [GRAPHIC] [TIFF OMITTED] T3751.011
    
    [GRAPHIC] [TIFF OMITTED] T3751.012
    
    [GRAPHIC] [TIFF OMITTED] T3751.013
    
    [GRAPHIC] [TIFF OMITTED] T3751.014
    
    [GRAPHIC] [TIFF OMITTED] T3751.015
    
    [GRAPHIC] [TIFF OMITTED] T3751.016
    
    [GRAPHIC] [TIFF OMITTED] T3751.017
    
    [GRAPHIC] [TIFF OMITTED] T3751.018
    
    [GRAPHIC] [TIFF OMITTED] T3751.019
    
    [GRAPHIC] [TIFF OMITTED] T3751.020
    
    [GRAPHIC] [TIFF OMITTED] T3751.021
    
    [GRAPHIC] [TIFF OMITTED] T3751.022
    
    [GRAPHIC] [TIFF OMITTED] T3751.023
    
    [GRAPHIC] [TIFF OMITTED] T3751.024
    
    [GRAPHIC] [TIFF OMITTED] T3751.025
    
    [GRAPHIC] [TIFF OMITTED] T3751.026
    
    [GRAPHIC] [TIFF OMITTED] T3751.027
    
    [GRAPHIC] [TIFF OMITTED] T3751.028
    
    [GRAPHIC] [TIFF OMITTED] T3751.029
    
    [GRAPHIC] [TIFF OMITTED] T3751.030
    
    [GRAPHIC] [TIFF OMITTED] T3751.031
    
    [GRAPHIC] [TIFF OMITTED] T3751.032
    
    [GRAPHIC] [TIFF OMITTED] T3751.033
    
    [GRAPHIC] [TIFF OMITTED] T3751.034
    
    [GRAPHIC] [TIFF OMITTED] T3751.035
    
    [GRAPHIC] [TIFF OMITTED] T3751.036
    
    [GRAPHIC] [TIFF OMITTED] T3751.037
    
    [GRAPHIC] [TIFF OMITTED] T3751.038
    
    [GRAPHIC] [TIFF OMITTED] T3751.039
    
    [GRAPHIC] [TIFF OMITTED] T3751.040
    
    [GRAPHIC] [TIFF OMITTED] T3751.041
    
    [GRAPHIC] [TIFF OMITTED] T3751.042
    
    [GRAPHIC] [TIFF OMITTED] T3751.043
    
    [GRAPHIC] [TIFF OMITTED] T3751.044
    
    [GRAPHIC] [TIFF OMITTED] T3751.045
    

</pre></body></html>
